                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Reporting Tool
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          September 16, 2014

Subject:       Final Report on the Program Evaluation of Peace Corps/Philippines
               (IG-14-06-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Philippines.

Management concurred with 11 of 12 recommendations. Management concurred with 11 of 12
recommendations. All recommendations remain open. OIG will review and consider closing
recommendations 1 to 11 when it receives the documentation reflected in the agency’s response
that demonstrates actions the agency has taken to address the recommendation. In its response,
management described actions it is taking or intends to take to address the issues that prompted
each of our recommendations. We wish to note that in closing recommendations, we are not
certifying that the agency has taken these actions or that we have reviewed their effect.
Certifying compliance and verifying effectiveness are management’s responsibilities. In order
for OIG to consider closing recommendation 12, additional documentation is required.

Our comments, which are in the report as Appendix E, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Senior Evaluator Jerry Black at 202.692.2912.

Please accept our thanks for your cooperation and assistance in our review.

cc:     Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Carlos Torres, Associate Director for Global Operations
        Keri Lowry, Regional Director, Europe, Mediterranean, and Asia Operations
        Kristin Besch, Chief of Operations, Europe, Mediterranean, and Asia Operations
        Betsy Vegso, Chief of Programming and Training
        Daryl Sink, Acting Associate Director, Safety and Security
        Denny Robertson, Country Director, Philippines
        Patricia Barkle, Deputy Chief Compliance Officer
        Philippines Country Desk
                     Peace Corps
                     Office of Inspector General




Peace Corps/Philippines Volunteers Michelle Taylor (2nd from left) and Laurenia Mangum (2nd from right) with counterparts




                                                 Flag of the Philippines




                    Final Program Evaluation Report:
                         Peace Corps/Philippines
                               IG-14-06-E
                                                                                   September 2014
                                      EXECUTIVE SUMMARY
BACKGROUND
More than 8,755 Peace Corps Volunteers have served the people of the Philippines, making
Peace Corps/Philippines (hereafter “the post”) by far the agency’s largest post in terms of the
total number of Volunteers to have served since it opened in 1961. There are currently three
projects in the Philippines: literacy in English education (education), children, youth, and family
services (CYF), and coastal resource management (CRM). At the onset of this evaluation, 130
Volunteers were serving in the Philippines, including five Peace Corps Response (PCR)
Volunteers.1 Each July the post receives a new group of two-year Peace Corps trainees. The
post’s fiscal year (FY) 2014 budget was US $3.03 million.2 At the time of the evaluation, the
post had 36 staff and 130 Volunteers, including five PCR Volunteers.

WHAT WE FOUND
The overall condition of programming at the post was sound. Coordination with the government
of the Philippines was excellent at the national and local levels. Host country officials we
interviewed understood the goals of the three projects, how they supported the development
priorities of the Philippines, and had positive views regarding the contributions Volunteers were
making. Coordination between Peace Corps and the Department of Social Welfare and
Development (DSWD) functioned particularly well. The DSWD representative had a long-
standing involvement with and in-depth understanding of the children, youth and families (CYF)
project. Volunteers generally felt able to contribute at their sites to the objectives of the
education, environment and CYF projects. With few exceptions Volunteers had established,
effective working relationships with their counterparts and host agencies. Staff was well aware of
programmatic challenges some Volunteers were experiencing at their sites and had strategies and
plans to address them.

The Philippines experiences frequent natural disasters. The evaluation uncovered weaknesses in
the post’s safety and security program, including emergency preparedness. Volunteers were
unfamiliar with the post’s emergency action plan (EAP) and lacked confidence in their
consolidation points. Volunteer site locator forms lacked information necessary to find the
Volunteer. Volunteer security warden training took place a few months after pre-service training
(PST), too late for new wardens to assist in emergencies that occurred during Volunteers’ first
months at site; and wardens lacked accurate information about Volunteers in their area.
Volunteers’ adherence to the post’s whereabouts notification policy was inconsistent. Some
Volunteer residences did not have required locks. The post did not maintain important safety and
security documentation in its site history files. The agency’s regional security officer for the
Philippines was based in the South Pacific, making it difficult to visit the post or provide safety
and security support by phone.



1
  Peace Corps Response provides qualified professionals the opportunity to undertake short-term assignments in
various programs around the world.
2
  This amount does not include the salaries, benefits, and related cost of U.S. direct hires assigned to post and other
costs the agency has determined should be centrally-budgeted.


Final Program Evaluation Report: Peace Corps/Philippines                                                                  i
Apart from the weaknesses noted in the post’s safety and security program, the quality of
Volunteer support in the Philippines was high. Volunteers gave all staff high marks for the
quality of support, and reported that staff had been responsive to issues and problems they raised.
The post had made changes to the medical unit that resulted in higher levels of Volunteer
satisfaction with medical support. The director of programming and training (DPT) was working
with program staff to improve communication with Volunteers on their work reports.

The training program in the Philippines was working well to prepare Volunteers for most aspects
of their Peace Corps service. Post had established learning objectives that applied to all
Volunteers as well as sector-specific learning objectives. Language testing scores showed that
Volunteers generally met the post’s local language requirements. Staff evaluated and adjusted
trainings based on their observations of trainee performance, weekly reviews of trainee progress
toward learning objectives, and feedback from Volunteers.

We found post’s resources and management practices were adequate for effective post
operations. The U.S. direct hire (USDH) leadership team was well respected and had created a
positive work environment. Management had replaced under-performing staff. Planning and
budgeting processes had resulted in sufficient financial and staff resources to support operations.

RECOMMENDATIONS IN BRIEF
Our report contains 12 recommendations to improve the post’s safety and security program.
When fully implemented the actions taken to address our recommendations should strengthen
post operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Philippines                                          ii
                                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY .....................................................................................................................i

HOST COUNTRY B ACKGROUND ......................................................................................................1

PEACE CORPS PROGRAM BACKGROUND ........................................................................................3

EVALUATION RESULTS ....................................................................................................................4

          P ROGRAMMING ....................................................................................................................................................... 4

          VOLUNTEER S UPPORT ............................................................................................................................................ 8

          TRAINING .............................................................................................................................................................. 18

          MANAGEM ENT CONTROLS ................................................................................................................................... 20


LIST OF R ECOMMENDATIONS .......................................................................................................22

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................24

APPENDIX B: INTERVIEWS CONDUCTED ......................................................................................25

APPENDIX C: LIST OF ACRONYMS ................................................................................................29

APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT..........................................30

APPENDIX E: OIG COMMENTS .....................................................................................................40

APPENDIX F: PROGRAM EVALUATION COMPLETION AND OIG CONTACT................................42
                        HOST COUNTRY B ACKGROUND
The Republic of the Philippines is a group of more than 7,100 islands in southeastern Asia, east
of Vietnam and north of Indonesia. The total population in 2013 was estimated to be 105 million,
almost half of whom live in urban areas. A little more than 10 percent of the population lives in
Manila, the capital city on the island of Luzon. Filipino and English are the official national
languages.

Figure 1. Map of the Philippines

                                                The Philippines was a colony of Spain from the
                                                16th century until the end of the 19th century.
                                                After the Spanish-American War, the Philippines
                                                was under American colonial administration for
                                                the first half of the 20th century. During World
                                                War II Japan conquered and occupied the islands
                                                from 1942 to 1945. On July 4, 1946 the country
                                                gained its independence, and a period of post-war
                                                U.S.-assisted reconstruction began.

                                                President Ferdinand Marcos ruled the Philippines
                                                for more than 20 years from 1965 to 1986, and
                                                put the country under martial law for most of the
                                                1970s. The Marcos regime ended in 1986.
                                                Corazón Aquino became the country’s eleventh
                                                President in 1986, the first female president in
                                                Asia. Under President Aquino the country
                                                adopted a new constitution that put limits on
                                                presidential powers, and democratic institutions
                                                that Marcos had suspended started functioning
                                                again. President Aquino put more emphasis on
                                                civil liberties, human rights, efforts to resolve
                                                internal insurgencies and secession movements,
                                                and restoring the country’s economic health.

                                                The current president of the Philippines, Benigno
                                                “Pinoy” Aquino Jr. is the son of former President
                                                Aquino. President Benigno Aquino has focused
                                                on anti-poverty and anti-corruption efforts, has
                                                furthered cooperation with the United States in
                                                terms of security assistance, business, and
                                                development support. His administration has
                                                responded to the country’s economic challenges
by seeking to increase budgets for education, health, cash transfers to the poor, and other social
programs, as well as looking to the private sector to invest in large infrastructure projects.

Final Program Evaluation Report: Peace Corps/Philippines                                         1
The Philippines was among the fastest growing economies in the region in 2013. Domestic
consumption, remittances from millions of Filipinos working in other countries, and an
expanding outsourcing industry contributed to the country’s economic growth. Despite these
economic conditions and macroeconomic growth that averaged 4.5 percent under the previous
administration, poverty and unemployment remain high, and significant income inequality
persists. An estimated 40 percent of workers are in the informal sector.

According to the United Nations Development Program’s “2013 Human Development Report”
the Philippines human development index placed it in the ”medium human development”
category and ranked 114 out of 187 countries. Current environmental problems in the Philippines
include deforestation of watershed areas, soil erosion, air and water pollution in urban areas, and
degradation and pollution of coastal areas including mangrove swamps and fish breeding
grounds.

The country experiences frequent natural disasters. It sits in a “typhoon belt” and is hit five or six
times each year by powerful storms. A cyclone that hit in November 2013, Typhoon Haiyan
(referred to as Typhoon Yolanda in Asia), was one of the strongest recorded tropical cyclones:
over 6,000 people died from the storm, more than a 1,000 remain missing, and the monetary
damage was estimated at almost $3 billion. Landslides, earthquakes, and volcanic eruptions also
occur.

                        Figure 2. Warehouse Damaged by Typhoon Yolanda




                  Source: OIG evaluator




Final Program Evaluation Report: Peace Corps/Philippines                                             2
                    PEACE CORPS PROGRAM B ACKGROUND
The post was started in October of 1961, making it the organization’s second oldest program.
The agency suspended operations in the Philippines for security reasons from 1990 to 1992.
More than 8,755 Volunteers have served in the Philippines, making it by far the largest Peace
Corps program based on the total number of Volunteers to have served in one country over time.
There are three projects in the Philippines: literacy in English education; children, youth and
family services; and coastal resource management. Each July the post receives a new group of
two-year Peace Corps trainees who swear in formally as Volunteers in September. There have
been more than 270 groups of Volunteers in the Philippines since 1961.

The post’s fiscal year (FY) 2014 budget was U.S. $3.03 million.3 At the time of the evaluation,
the post employed 36 staff (three positions were vacant) and supported 130 Volunteers. The
Volunteer population included 63 from group 272 (in their sixth month of service), 55 from
group 271 (in their 18th month of service), seven third year Volunteers from group 270, and five
PCR Volunteers.

A more detailed explanation of the project areas is presented below:

     Literacy in English Education (Education)
    The education project’s three goals focus on improving teaching, improving student
    achievement in English, and improving community participation in the school and
    educational activities. Education Volunteers co-plan and co-teach with their Filipino teacher
    counterparts, encourage use of communicative teaching methods in the classroom and
    provide opportunities for Filipino teachers to improve their English through collaboration
    with the Volunteer. Volunteers also assist Filipino teachers to design and conduct remedial
    courses for students who require extra English and literacy instruction. The education project
    was evolving toward more non-formal education activities (also called alternative learning
    systems) in order to reach out of school youth. At the time of fieldwork for the evaluation, 43
    Volunteers served in the education project.

     Children, Youth, and Family Services (CYF)
    The goals of the CYF project include working directly with youth to develop and enhance
    their life skills and increasing the capacity of Filipino agencies that are providing direct
    services to at-risk children and youth. CYF Volunteers work in centers and facilities
    operated by the Philippine Department of Social Welfare and Development (DSWD), local
    government units (LGUs), and various faith-based and non-government organizations. These
    facilities serve at-risk children and youth as well as some adults. Volunteers work with
    children in conflict with the law; abandoned, neglected, and abused children and youth; and
    children and adults with physical and mental disabilities. At the time of fieldwork for the
    evaluation 48 Volunteers served in the CYF project.



3
 This amount does not include the salaries, benefits, and related cost of USDH assigned to post and other costs the
agency has determined should be centrally-budgeted.

Final Program Evaluation Report: Peace Corps/Philippines                                                              3
    Coastal Resource Management (CRM)
   The CRM project’s goals are to build community support for CRM initiatives, and to
   promote the ability within LGUs to manage coastal and marine resources. Through
   participatory community action and environmental education, CRM Volunteers assist coastal
   communities’ efforts to restore and protect marine habitats and to enhance their food
   security. Based in LGUs, CRM Volunteers work with surrounding coastal populations and
   fishing communities (known in the Philippines as “fisherfolk”) to develop and implement
   integrated CRM plans as well as to organize environmental education and training and
   establish legal protection of fish stocks and marine habitats. At the time of fieldwork for the
   evaluation, 34 Volunteers served in the CRM project.

    Peace Corps Response (PCR)
   The PCR program began in 2007 following a super typhoon (Typhoon Durian) that
   devastated the Bicol region in late November 2006. It focuses on humanitarian assistance and
   disaster preparedness and mitigation. Partnered with local government units, non-
   governmental or faith-based organizations, PCR Volunteers have conducted a variety of
   disaster preparedness activities including nutrition and socio-economic assessments, food
   security and alternative livelihood projects, shelter construction, and administration planning
   to address the needs of internally displaced persons. There were five PCR Volunteers serving
   in the country at the time of fieldwork for the evaluation, and post had plans to grow the
   program.


                               EVALUATION RESULTS
PROGRAMMING

The evaluation assessed the extent to which the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

      the coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
      whether post is meeting its project objectives;
      counterpart selection and quality of counterpart relationships with Volunteers;
      site development policies and practices.

The overall condition of programming at post was sound. Coordination with the government of
the Philippines was excellent at the national and local levels. Projects were designed to meet
important development priorities of the country. Volunteers generally felt able to contribute at
their sites to the objectives of the education, CRM and CYF projects. Volunteers had established,
with few exceptions, effective working relationships with their counterparts and host agencies.
Staff was well aware of programmatic challenges some Volunteers were experiencing at their
sites and had strategies and plans to address them. Because of the strength of the post’s
programming activities, we are not issuing any recommendations in this area.


Final Program Evaluation Report: Peace Corps/Philippines                                         4
In reviewing the official agreements and memoranda supporting Peace Corps’ work in the
Philippines, post’s coordination with host country officials, project frameworks, site
development policies and practices, the achievement of project objectives, and the small grants
program at post, we found no significant areas of concern that would necessitate action by the
post. A discussion of several aspects of strong program management, as well as areas the post
should consider to further strengthen the program, follows.

Country Agreement and Memoranda of Understanding (MOUs). Host country officials we
interviewed understood the goals of the three projects, how they supported the development
priorities of the Philippines, and had positive views regarding the contributions Volunteers were
making. The Peace Corps signed an agreement with the government of the Republic of the
Philippines in October, 1961. For the education and CYF projects there are MOUs with the
Department of Education, DSWD and the Philippine National Volunteer Service Coordinating
Agency (PNVSCA). The CRM project did not operate on the basis of a MOU with a national
level department or agency of the Philippine government, but rather through site-specific
agreements with LGUs where CRM Volunteers are placed. Coordination between the Peace
Corps and the DSWD functioned particularly well. The DSWD representative we interviewed
about the CYF project had long-standing involvement with and very in-depth understanding of
the project:

        Peace Corps is really important for the longer-term capacity building of our offices and local staff. Other
        short-term volunteer programs here in the country can’t do that. And we don’t have a lot of resources to put
        into some of the activities that your Volunteers can do. They help develop resources like manuals for
        working with orphanages, foster care, working with abused children, violence against women and other
        areas. So the focus is on capacity building in these areas and ensuring that whatever they do is sustainable
        in the long term. Most of the activities Peace Corps Volunteers do are things that we would like to do but
        just don’t have the resources to do without some help.

Project Frameworks and Ability to Achieve Project Objectives. Each of the three project
frameworks had been reviewed and endorsed by headquarters, and in our interviews 24 of 284
Volunteers demonstrated a good understanding of their project objectives. Most Volunteers
reported that they were able to accomplish those objectives or saw possibilities and room for
improvement in the future. Just three out of 30 Volunteers reported they were only able to
contribute “poorly” to their project objectives. Two Volunteers expressed that they did not have
enough to do; though discouraged at the time of our interview, both were optimistic that their
service could improve with time. Twenty-one of 30 Volunteers said they had enough work to do
either “most of the time” or “always.”

The longer Volunteers had been in service at the time of our fieldwork in March 2014, the higher
they tended to rate their ability to achieve project goals. CRM and CYF Volunteers, who were in
their sixth month of service at the time of our interviews, felt less able to achieve project
objectives than did education Volunteers, or Volunteers who were in their eighteenth month of
service. CRM Volunteers in their sixth month of service frequently reported that they could only
4
 Not all 30 Volunteers answered our questions about the goals of their projects, or how well they had been able to
contribute to those goals. One Volunteer had changed sites after Typhoon Yolanda and was still figuring out how
she was going to contribute to the CYF project goals at her new site; a PCR Volunteer was unfamiliar with the
written goals of the CYF or Education projects; an Education Volunteer did not want to give a numeric rating to her
work; and an Education Volunteer could not recall having seen the latest version of the education project’s goals.

Final Program Evaluation Report: Peace Corps/Philippines                                                           5
contribute ‘poorly’ to the goals of the CRM project. In our discussions of this issue with post
staff we learned that our fieldwork took place during a season when CRM Volunteers had less
opportunity to directly engage with fisherfolk communities, but that the season was shifting to
one in which CRM Volunteers would get out with their LGU counterpart agencies to work in
fisherfolk communities. In addition, soon after our fieldwork ended the post’s new CRM sector
manager conducted site visits to these Volunteers and their counterpart agencies.

Counterpart Relationships. The majority of Volunteers’ we interviewed had established
positive working relationships with their counterparts, though some CRM Volunteers had
difficulty engaging their counterpart agencies. Twenty out of 30 Volunteers reported that their
relationship with their primary counterpart was either good or very good, and seventy percent of
Volunteers said their counterparts supported their primary assignment goals either well or very
well. Volunteers in the CYF project described positive counterpart engagement:

       I have received very good feedback, assistance, and resources to get things done.

       My counterpart is very supportive and willing to take risks. She wants my input on things and is good at
       answering my questions.

       She is amazing--over the top. [The sector manager] does a great job of connecting us with our
       counterparts...She had me right away getting involved in her work.

Some CRM Volunteers and other Volunteers in their sixth month of service at the time of our
fieldwork reported that their counterparts did not support their project goals or community
integration efforts. Twelve Volunteers (six from the CRM project; and three from each the CYF
and education projects) were experiencing challenges engaging their counterparts and host
agencies, which had complicated their ability to achieve their primary assignment goals. The
post lacked a CRM project manager from September 2013 to May of 2014, and CRM Volunteers
in their sixth month of service rated their working relationships with their counterparts much
lower (2.5 out of 5) than other Volunteers. Because Volunteers in their eighteenth month of
service rated their ability to achieve project objectives and their counterpart relationships more
positively than did Volunteers in their sixth month, and because a CRM project manager started
work after our fieldwork ended, we determined that no finding is necessary to address
counterpart support for Volunteers’ project goals.

Site Development. Staff explained the site development process consistently and understood
their roles. In addition, Volunteers were generally satisfied with their sites. Twenty-four out of 30
Volunteers were either “satisfied” or “very satisfied” with their sites (80 percent favorable).

The post had started a strategy of clustering Volunteers in certain geographic regions beginning
with group 271. By taking a clustering approach to site identification and development, the post
was trying to move toward a more efficient and impactful model of Volunteer placement. As the
country director (CD) explained:

       We are more connected at the region now with Volunteers closer together, so it does help to create a more
       organic presence for Volunteers as opposed to six hours this way and 12 hours that way. The most
       important reason for this is that if you want to have an impact and roll up data you have to cluster data. We
       are two groups into this strategy of clustering. We are trying to get all three sectors in each geographic
       region so we can promote cross-sectoral work among Volunteers.

Final Program Evaluation Report: Peace Corps/Philippines                                                           6
Prior to placing a Volunteer, the post provides PNVSCA with a “site assessment checklist
report” that summarizes the post’s steps to identify and prepare each site for a Volunteer and
contains details as to why the post is recommending a Volunteer be placed there. This process
required the post to have a document for each site that included relevant site history information.

Community Integration. As noted above, most Volunteers were satisfied with their sites (where
they live and work) and with their counterpart relationships. Volunteers described a range of
approaches they have taken to integrate into their communities, and few Volunteers reported
serious hindrances to their efforts to integrate. However, some CRM Volunteers pointed out that
because they lived in relatively well-off municipalities at a distance from the fisherfolk
communities they sought to serve through their LGUs, their community integration was lagging
and they felt unsure what to do.

         There are other places on this island that really need our help. I feel like here the municipality is well off,
         has money to do things…To me it seems silly to work in a municipality like this that could just hire
         someone to do what we are doing. Other poorer communities are just at a loss.

         My LGU hopes I can help them get a grant for a buoy and guardhouse repairs, but this is a class 1 region
         and it seems like they should just use their own money.

         I feel very removed from the community I want to be in—the different fisherfolks. I don't live in a coastal
         barangay. I'm trying so hard to find a place that fits that but there is not much available here. My house is
         nicer than I ever expected—I feel like it is a castle compared to the fisherfolk. This is at a higher socio-
         economic level than my target community.

Figures 3 below illustrates a “class 1” municipality hosting a CRM Volunteer, and figure 4
illustrates a fisherfolk community.

      Figure 3: Municipal Hall in Miag-ao                               Figure 4: Fisherfolk Community




Source: OIG evaluator                                           Source: OIG evaluator



As mentioned above, we interviewed CRM Volunteers during a season of relatively low direct
engagement by LGUs with fisherfolk communities. Because of the seasonal nature of CRM
Volunteer engagement with fisherfolk communities, and because of the recent work by the CRM
sector manager to visit and support CRM Volunteers at their sites, we are not issuing a finding
related to site placement and community integration. We encourage the new CRM sector

Final Program Evaluation Report: Peace Corps/Philippines                                                                   7
manager to look for opportunities to place CRM Volunteers closer to or in fisherfolk
communities in order to facilitate CRM Volunteers’ achievement of project goals through closer
community integration.

Although most elements of the post’s site development process were working well, in the
Volunteer Support section of this report we address deficiencies we found related to housing
checks and the post’s maintenance of sufficient safety and security related site history
information that is important for site development.

Small Grants Activities. The CD, other staff, and Volunteers expressed confidence in the
oversight provided by the small grants committee. During our fieldwork we observed the small
grants working group deliberating over various proposals that Volunteers had recently submitted.
Twenty of 30 Volunteers we interviewed were involved in small grant projects, though many
projects were at the design and proposal stage. Eight Volunteers had SPA (Small Project
Assistance) projects; eight had projects through a partnership between the Peace Corps and
World Connect, an international organization based in the U.S. that helps fund small projects in
developing countries. Four Volunteers used the local charitable group as BKP to source books
and materials for libraries or classrooms. Among the 11 small projects that Volunteers could rate
in terms of their effectiveness, eight were rated positively (at least 4 out of 5).

                           Figure 5: Small Grants Committee Meeting




                  Source: OIG evaluator




VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has the post provided
adequate support and oversight to Volunteers?” To determine this, we assessed numerous
factors, including staff-Volunteer communications; project and status report feedback; medical
support; safety and security support including staff visits to Volunteer work sites, EAP, and the
handling of crime incidents; and the adequacy of the Volunteer living allowance.


Final Program Evaluation Report: Peace Corps/Philippines                                            8
The quality of Volunteer support in the Philippines was high with the exception of the
management controls related to its safety and security program. Volunteers gave all staff high
marks for the quality of support, and reported that staff had been responsive to issues and
problems they raised. The post had made changes to the medical unit that resulted in higher
levels of Volunteer satisfaction with medical support. The DPT was working with program staff
to improve communication with Volunteers on their work reports.

In reviewing staff support to Volunteers, site visits, medical support, Volunteer report feedback,
the Volunteer advisory committee, and settling-in and living allowances we found no significant
areas of concern that would necessitate action by the post.

Overall Staff Support. Volunteers rated the quality of support from staff very favorably; it was
very rare for a Volunteer to have a negative viewpoint or provide a negative rating (1 or 2 on a 5
point scale) of any staff person. Volunteers described the CD as being thoughtful and proactive,
sensitive and caring, and knowing how to encourage Volunteers to have a successful service.

       He is absolutely incredible. Not only a great CD who oversees everything and takes care of policy but he is
       also very personable. He was the second staff person I saw when I got off the military airplane in Manila
       after our evacuation from Tacloban, and I could tell that he was crying out of concern for all of us.

Similarly, Volunteers expressed a lot of appreciation for other staff as well. The comments below
represent a selection of positive remarks Volunteers made about staff.

       She is really caring about your welfare--and at a deeper emotional level wants to know how you are doing.
       It’s not a surface thing; she is sincere in her interest. I'm really impressed with her style.

       He’s the best person to have doing this job. He is so enthused. He can go into incredible detail…[and is] a
       font of information. He encouraged me to go slow and get integrated into the organization, which was great
       advice, since I tried to go too quick.

       He’s a rock star. Everything that he has planned has really been well done and well thought out and in the
       interests of the Volunteers. He runs everything well. And he goes over and beyond his job with us and is
       super friendly. When he was the regional manager he went out to save the Volunteers [after typhoon
       Yolanda] in his blue Nikes.

Twenty-six out of 30 Volunteers said that the responsiveness of staff to any issue or question the
Volunteer had raised was either good or very good. No Volunteer we interviewed gave a
negative rating (1 or 2 out of 5) for staff responsiveness to issues the Volunteers had raised.

Site Visits. Despite the very high marks Volunteers gave staff for the quality of support
provided, almost a quarter of Volunteers said they had not received an adequate number of site
visits from staff. Among those who said the number of site visits was inadequate, four were
CRM Volunteers who had not had a sector manager for seven months prior to our fieldwork.
Other site visits had been cancelled or delayed due to Typhoon Yolanda. The post was in the
process of filling the CRM sector manager position during our fieldwork. After our fieldwork
ended, the new sector manager started work and had already visited most CRM Volunteers at
their sites.



Final Program Evaluation Report: Peace Corps/Philippines                                                            9
Medical Support. Recent staff changes in the post’s health unit appear to have contributed to
improvements in medical and health support for Volunteers. The post had recently hired a new
Peace Corps medical officer (PCMO) to assist the medical unit. Volunteers we interviewed gave
positive ratings for the quality of medical support; 71 percent reported that the PCMOs had been
either “supportive” or “very supportive” of their health needs.

       They really took care of me after the typhoon. I had some strange coping things going on and felt very
       supported by the doctors. They brought in a trauma counselor for some of us. I advocated for myself and
       told them what I needed and they were very responsive.

       As a whole they’ve been good; I had a car accident and I called the duty officer. The PCMO called right
       away and the next morning flew me into Manila for tests. Anything I’ve needed for meds or consultation
       I’ve had. They have been very supportive, very helpful.

The medical evacuation plan was in place and complete.

Responding to Volunteer Work Reports. Staff was not responding to work reports from
Volunteers in a timely manner, though efforts were underway to improve the review and
feedback process. For interviewed Volunteers who had submitted a report on their project
activities, more than half said that they rarely or never got a response from staff. Among those
who had received feedback, only half rated it favorably. Staff explained that their delays in
responding to Volunteer reports were due to time constraints as well as technical problems they
had experienced with the latest version of the Volunteer reporting tool. The DPT had worked
recently with staff to set expectations concerning the timing and substance of their responses to
Volunteer reports. A clearer process and division of labor had been established to facilitate
responses to the next round of work reports. On the basis of efforts already underway at the post
to improve the timeliness of staff responses to Volunteer reports, we are not issuing a finding or
recommendation in this area.

Volunteer Advisory Committee (VAC). The VAC was in a period of transition, and most
Volunteers we interviewed were not familiar enough with the VAC to discuss its effectiveness.
Elections had recently been held and the new VAC had not yet met at the time of fieldwork. The
CD explained that discussions with the previous VAC had been antagonistic and not very useful.
Staff hoped the new VAC would be a more effective conduit for addressing issues among the
Volunteers, as well as a group that could help build a positive ‘esprit de corps’ among the
Volunteers.

Settling-In and Living Allowances. Eighty-seven percent of Volunteers reported that their
monthly living allowance was sufficient. Volunteers who moved out from their in-site host
family into their own place reported that their settling-in allowance was insufficient. Common
complaints concerned the inability to purchase refrigerators.. The post offered a one-time
supplemental allowance that Volunteers could use to purchase items their settling-in allowance
did not cover “like a bicycle and helmet, a refrigerator, laundry device, etc.” The CD believed
that increasing the settling-in allowance would create an incentive for more Volunteers to move
out of their in-site host family arrangement, and he wanted to encourage Volunteers to stay with
their host families in order to develop better language skills and cultural understanding.



Final Program Evaluation Report: Peace Corps/Philippines                                                         10
While many areas of Volunteer support functioned at a high level, the evaluation uncovered
some areas that require management attention, particularly the documentation and management
controls in the post’s safety and security program, including emergency preparedness. The
remainder of this section provides more information about what our evaluation found concerning
the post’s safety and security program.


Volunteers did not consistently adhere to the post’s whereabouts reporting policy.

According to the Volunteer Handbook, Volunteers in the Philippines must inform Peace Corps:

       …any time they will not be spending the night in their communities. This can be done by phone call, e -
       mail, or text message to the Regional Manager (RM) or a designated back-up RM. You must state where
       you will be, how you can be reached, and the dates you will be out.

Most Volunteers maintained that they followed the post’s whereabouts reporting policy either
most of the time or always when they left their sites. Volunteers who admitted that they did not
always adhere to the post’s whereabouts policy expressed different reasons for this. Some
reported their whereabouts if they were going to be far away from their site for the night, like on
another island, but not every time they left their site for an overnight stay somewhere else. Some
Volunteers did not always follow the whereabouts reporting policy because they did not want to
get permission from their counterparts and supervisors to be away from their sites. Volunteers’
inconsistent adherence to the post’s whereabouts policy made it more likely that in an emergency
staff would be unable to communicate efficiently with them.

               We recommend:

                    1. That the country director reinforce the importance of
                       the whereabouts policy with Volunteers, including
                       under what circumstances Volunteers need to seek
                       approval from their supervisor to leave their site.


Volunteer houses did not have sliding bolt locks as required.

One of the safety and security features that the post has required for all Volunteer housing in the
Philippines is that entrance doors can be secured with a sliding bolt lock. Of the 28 houses we
inspected, eight (almost 30 percent) did not have sliding bolts. The lack of such locks increases
the risk that Volunteers’ houses can be broken into. Volunteer houses lacked sliding bolt locks
because there was insufficient review of completed housing checks and a lack of follow -up by
safety and security staff to ensure that missing dead bolts were in place.




Final Program Evaluation Report: Peace Corps/Philippines                                                         11
                  We recommend:

                       2. That the safety and security manager5 ensure that all
                          completed housing checks are reviewed and that each
                          mandatory safety and security criterion, including
                          sliding dead bolts, are in place at all Volunteer
                          residences.


Volunteer site locator forms were inaccurate and missing key information.

Site locator forms (SLFs), also called emergency locator forms, are an important component of
every Peace Corps post’s Emergency Action Plan (EAP). The key information to include on an
SLF is detailed in Peace Corps’ Characteristics and Strategies of a High Performing Post: Post
Management Resource Guide, Part 11.8, “The Post Emergency Action Plan,” which states in
part:

         … maps to the Volunteer’s site and house, emergency communications means and contacts,
         possible modes of transportation, the nearest clinic, airfield, and police post, and various other
         site-related information.

The post’s EAP stresses the importance of having accurate and complete directions to each
Volunteer’s house:

         In the event that contact cannot be established using designated communications means, or if the nature of
         the emergency otherwise dictates, PC/Philippines will attempt contact through any other means available,
         including dispatching a staff. For this reason, it is essential that Volunteers ensure that their Site Locator
         Form (SLF) is accurate and up-to-date at all times.

Furthermore, the Office of Safety and Security established a Standard Operating Procedure
outlining the safety and security manager’s (SSM’s) responsibilities regarding SLFs:

         The SSM will coordinate with appropriate staff to ensure that site locator information is reviewed
         during all site visits, including GPS [global positioning system] data, where permissible…The
         SSM will ensure a system is in place for the review and improvement of maps to Volunteer
         residences .

During fieldwork we tested the accuracy of each Volunteer’s SLF in our sample. Experience has
shown that a major storm and significant cloud cover disables technology-based communication
systems like cell phones, satellite phones and global positioning systems (GPS). Given the
prevalence of serious natural disasters in the Philippines, we believe accurate SLFs for each
Volunteer must be maintained in paper copy. Our test was designed to determine whether or not
a Volunteer could be located during an emergency using a paper copy of the Volunteer’s SLF.

Twenty of the 28 SLFs we tested did not contain accurate maps or written directions to
Volunteer houses, and we were unable to find the Volunteers in our sample using these SLFs (a

5
 The agency changed the title for this staff position from safety and security coordinator to safety and security
manager after our fieldwork.

Final Program Evaluation Report: Peace Corps/Philippines                                                              12
71 percent fail rate). SLFs had cell phone numbers, GPS coordinates, and email addresses for the
Volunteers, so we were able to use our cell phones to text Volunteers and have them guide us to
them over the phone. No SLFs contained information on local police or medical facilities at the
Volunteer’s site.

We learned from more than one Volunteer we interviewed that due to incomplete or poorly done
SLFs staff had difficulty locating the Volunteer in a recent emergency. We learned that in a
similar natural disaster that struck in late 2006, the Peace Corps also could not find at least one
Volunteer for some time.

The reasons SLFs did not contain accurate and reliable information were multiple. Most
Volunteers did not provide clear maps and instructions to their homes on their SLFs. Some
Volunteers indicated their work site, but not their residence. Some Volunteers were not
submitting their SLFs to the office in a timely manner after arriving at their sites, or after moving
from a host family stay to their own lodging somewhere else. Staff was not consistently
reviewing information on SLFs and following up with Volunteers to make corrections. And staff
was not testing SLFs during site visits. In order to have a solid management control which
ensures that staff has reliable information to find all Volunteers in the country, especially during
an emergency, each of these weaknesses will need to be strengthened.

               We recommend:

                    3. That the safety and security manager provide training
                       and instructions to Volunteers on properly completing
                       their site locator forms and ensure that each site
                       locator form contains a sufficiently detailed map and
                       written directions to the Volunteer’s residence.

                    4. That the country director ensure that post has a process
                       for testing and verifying information on site locator
                       forms.


Volunteer wardens did not receive training early enough in their service, and some were not
provided accurate information about which Volunteers they were responsible for contacting in
an emergency.

According to the post’s EAP, it relies upon some of its Volunteers to act as “wardens” for other
Volunteers in their area. In the event of an actual emergency or during emergency drills, wardens
alert Volunteers directly, providing instructions about what to do, including whether or not to
gather in a hotel that has been designated as a consolidation point:

       PC/Philippines uses a PC [Peace Corps] warden system. Numerous Volunteers throughout the country have
       been designated as PC wardens (and alternates) and act as the liaison for passing messages and confirming
       receipt of those messages between PC/Philippines and the PCVs [Peace Corps Volunteers]. All Volunteers
       must know whom their PC warden (and alternate are), and make sure that their warden has the most up-to-
       date contact information for them.


Final Program Evaluation Report: Peace Corps/Philippines                                                     13
The post did not provide warden training to group 272 Volunteers until April 2014, seven
months after the end of their PST. During this period of time the safety and security program
relied on trained wardens from groups 270 and 271 to communicate with Volunteers from group
272 who had been placed in the warden’s region. Yet not all wardens had accurate and timely
information about the Volunteers they were responsible for contacting, and not all Volunteers
knew who their warden was. One Volunteer from group 272 did not know for a few months that
she had been designated as a warden. One Volunteer stated

       There should have been warden training during PST. When the typhoon did come and we had to
       consolidate no one knew what was going on.

When Volunteers changed sites and moved to an area with a different warden, there was not a
process to ensure that wardens were promptly notified of the change in Volunteers in their area.
This raises the risk that some Volunteers may not be contacted by their warden in an emergency.

                We recommend:

                     5. That the safety and security manager train Volunteers
                        wardens closer to the end of PST, before they are
                        expected to fulfill any warden duties.

                     6. That the safety and security manager ensure that
                        Volunteers have information on who their wardens are
                        and that wardens have accurate and up-to-date lists of
                        the Volunteers they are responsible for contacting in an
                        emergency.


Volunteers were unfamiliar with the EAP.

MS 270 section 8.2 states that “The CD will assure that post staff and [Volunteers/trainees] are
trained in the EAP and in individual EAP responsibilities…” Fourteen out of thirty Volunteers
we interviewed either did not have or were unsure if they had a copy of their EAP. Some
Volunteers did not seem to understand what the EAP was or in what format it had been provided
to them during training. Volunteers’ lack of awareness of their EAP stemmed from inadequate
EAP training during PST. Eight Volunteers commented that the EAP and disaster preparedness
training during PST was not sufficiently covered.

       I did not feel it imparted any specific skills to be safer.

       There was not much information on what to do in an emergency or disaster. Not much about what to do if
       it’s flooding or a typhoon hits. I mean, it was kind of obvious advice to seek higher ground.

       We had an introduction to emergency preparedness during PST. It was broad and not very focused. They
       skimmed the surface and then two weeks later we were evacuated for the flood. We got the EAP but we
       didn’t understand it.



Final Program Evaluation Report: Peace Corps/Philippines                                                      14
       The safety and security training could definitely be improved on. More information on the natural disasters
       is needed. We did not really cover that very much in PST. It was limited. I can understand that but I think
       natural disasters and emergency action plans should be covered more thoroughly during PST.

Deficiencies in EAP training at the post trace back several years and have been noted in previous
agency evaluation reports. Following a super typhoon that struck the Philippines in late 2006, an
internal management assessment team from the agency was sent to the Philippines and
concluded that disaster preparation training of Volunteers had been insufficient, and
recommended that the post improve it. The report recommended that the SSM “should provide
disaster preparedness training during PST for PCVs [Peace Corps Volunteers] including clear
guidelines for consolidation of PCVs following disasters.”

Experience has shown that EAPs are important in the Philippines. One Volunteer had her EAP in
a plastic re-sealable bag along with other essential documents and credited it with having helped
her stay alive during recent typhoon Yolanda. Volunteers who lack a good understanding of their
EAP are at risk of not being prepared to respond appropriately during the next emergency or
natural disaster in the Philippines.

               We recommend:

                    7. That the country director ensure that staff and
                       Volunteers/trainees receive sufficient emergency
                       preparation training that is specific to the natural
                       disasters and other emergencies in the Philippines.


Some Volunteers lacked confidence in their consolidation point as a safe and appropriate
place to meet in an emergency.

There are a variety of things the post needs to take into consideration when selecting an
emergency consolidation point. The agency’s standard operating procedures related to the
selection of consolidation points provides that the SSM:

       …will develop a list of minimum standards to be used when evaluating consolidation points. The standards
       must consider among other things:

              Geographical hazards
              Transportation options
              Communication options
              Structural integrity of the facility
              Results from post’s Annual Risk Assessment.
              How many PCVs [Peace Corps Volunteers] the location can reasonably accommodate with regard
               to sleeping arrangements, food and water, excreta disposal, and other factors.

       The SSM will inspect and evaluate all current or proposed consolidation points utilizing the minimum
       standards. Results of the inspection will be recorded and filed appropriately.

During typhoon Yolanda some Volunteers lacked confidence in their consolidation point as a
safe location to shelter. One Volunteer we interviewed said:

Final Program Evaluation Report: Peace Corps/Philippines                                                        15
       Our original consolidation point was horrible--in a flood zone, volcano path, etc. the worst place to be. We
       told them that in the first like practice session. Our wardens told [the SSM] this. So we stressed that we
       needed to change the consolidation point.

Volunteers reported to us that the emergency training they received during PST did not
sufficiently stress what steps they should take in an emergency. Because of insufficient
emergency training and lack of trust in their consolidation points, some Volunteers refused to go
to their consolidation points when instructed during the most recent natural disaster and chose to
stay in their homes instead. This complicated and slowed the agency’s efforts to account for the
security of each Volunteer. Staff was required to make extraordinary efforts to gather all the
Volunteers and remove them from a disaster-affected area.

                We recommend:

                    8. That the safety and security manager establish and use
                       standards for the selection of consolidation points.

                    9. That the safety and security manager and training
                       manager ensure through training and communication
                       that all Volunteers understand why they must go to
                       their consolidation point when instructed in an
                       emergency.

The post did not maintain sufficient safety and security related documentation in site history
files.

The Office of Safety and Security’s “Standard Operating Procedure: Site History Files” specifies
that certain procedures need to be followed in order “to ensure that relevant, site specific, safety
and security information is being collected, stored and made readily available to programming
staff with an active role in the site development and site selection process”. These procedures
include identifying what kind of information needs to be centrally maintained in an electronic
format, periodically reviewing site history files to ensure that the right information is being
collected on each site, and reviewing each potential site for any security concerns. The procedure
also specifies the sort of information that should be included in site history files: site
development reports, notes of any security concerns or incidents that have occurred at the site,
and other relevant reports from the media or other sources.

The post did not maintain sufficient site history files in accordance with the standards set out by
the Office of Safety and Security. The safety and security site history documentation provided to
us was a list of crimes against Volunteers that had been recorded in the agency’s Consolidated
Incident Reporting System (CIRS). Volunteer files did not contain written reports of security
assessments the SSM had done as part of the site identification and approval process. Safety and
security assessments of each site were not maintained electronically or in hard copy. As a result,
staff did not have access to reliable and complete site-specific safety and security information.
Other than the list of crimes that had been reported in CIRS the post lacked written information
on the security conditions at any past, present or potential Volunteer site.

Final Program Evaluation Report: Peace Corps/Philippines                                                         16
       We have some of this information in VIDA [Volunteer Information Database Application]. A lot of the
       information is in people’s memories.

       All we have is in the VIDA. The name of the agency, the address and the name of the person…But not
       harassment issues—it’s not in VIDA. That is with SSM. When we are looking for sites for transfer PCVs,
       there are some that we know we can’t place a PCV there but it’s not in the database.

The lack of site-specific safety and security documentation means that staff who play an active
role in identifying and developing new sites are operating without important information, and
may inadvertently recommend sites that are inappropriate for safety and security reasons.

               We recommend:

                   10. That the safety and security manager establish and
                       implement a system for the collection and maintenance
                       of site history files that includes written reports of
                       security assessments of Volunteer sites.

Peace Corps safety and security officer (PCSSO) support did not benefit the post’s safety and
security program.

The PCSSO for the Philippines was based in Fiji in the South Pacific, making it difficult for the
PCSSO to visit the post. Travel between Fiji and the Philippines can take over 13 hours, and
there is a 4-hour time zone difference which limits the amount of time during the day for phone-
based support. In the past the PCSSO supporting the Philippines had been based in Thailand,
which is about a 3 hour flight and one hour of time zone difference. Staff questioned whether it
made sense for their PCSSO to be based in Fiji. With the exception of the lack of safety and
security information in the post’s site history files, which we’ve also noted in our report, the
PCSSO reports we reviewed from 2012 and 2013 did not address deficiencies in the management
controls of the post’s safety and security program.

The PCSSO’s previous two trips to the post appeared to be for purposes other than conducting a
full Peace Corps Manual section (MS) “MS 270 review,” which the agency requires every three
years. Full MS 270 reviews are designed to generate a detailed status report on all aspects of the
post’s safety and security program, including management controls over important
documentation like Volunteer site locator forms.

Based on our fieldwork and the list of weaknesses we found in the management controls of the
safety and security program, it is important for the post to receive a complete MS 270 review as
early as can be arranged in 2014.




Final Program Evaluation Report: Peace Corps/Philippines                                                     17
               We recommend:

                  11. That the Peace Corps safety and security officer
                      conduct a full Peace Corps Manual section 270 review
                      of Peace Corps/Philippines according to the agency’s
                      guidance, “Manual section 270 and Other Policy Review
                      2014.”

                  12. That the associate director of safety and security assess
                      options for positioning the Peace Corps safety and
                      security officer for the Philippines in a location that
                      allows for more effective support.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as
training adequacy and planning and development of the training life cycle.

The training program in the Philippines was working well to prepare Volunteers for most aspects
of their Peace Corps service. The post had established learning objectives that applied to all
Volunteers as well as sector-specific learning objectives. Language testing scores showed that all
but five of the 63 trainees from group 272 had met the post’s local language requirement of
“intermediate mid” in Tagalog, and all but one Volunteer had achieved at least “intermediate
low”. Staff evaluated and adjusted trainings based on their observations of trainee performance,
weekly reviews of trainee progress toward learning objectives, and feedback from Volunteers.

In reviewing training objectives, how trainees are assessed, and how the staff evaluate and adjust
training each year, we found no significant areas of concern that would necessitate action by the
post.

Training Objectives and Trainee Assessment. The post had established learning objectives for
all trainees as well as specific learning objectives for trainees in each sector (education, CRM,
CYF). During PST the training staff observed trainees and held weekly meetings with trainees to
provide feedback on their progress. Trainee assessment reports provided staff with information
on trainees’ community entry skills, language, and cross-cultural skills. Language testing scores
were maintained and demonstrated that Volunteers who had not passed the local language
requirement at the end of PST were retested four months later.

Staff Evaluation of Training. Staff had made a number of adjustments to PST based on
evaluations and feedback Volunteers. These included adding site-specific local language training
at the end of PST for Volunteers who wanted an orientation to a language other than the national
language. Programming and training staff used the evaluation comments from Volunteers to
revise trainings in a collaborative manner.



Final Program Evaluation Report: Peace Corps/Philippines                                        18
Volunteer Views of Training. Volunteers had positive views about the effectiveness of cross-
cultural training, as well as health and medical training. With the exception of disaster
preparedness training, Volunteers reported that safety and security training sessions were also
effective.

                            Table 1: Volunteer Ratings of PST Effectiveness6


    Cross-Cultural                                      79%                                       17%      3%
          Medical                                     76%                                       21%        3%
            Safety                                  70%                                     23%           7%
        Language                                  67%                             7%            27%
        Technical                           53%                                    37%                  10%

                                    % favorable               % neutral               % unfavorable
Source: Volunteer interviews conducted by OIG evaluators.

Volunteers reported PST language training to be mixed in terms of its effectiveness, though
language testing scores showed that all but a handful of Volunteers had achieved the local
language requirement by the end of PST. While 20 of 30 rated their language training as either
effective or very effective, eight Volunteers rated the training as ineffective or very ineffective.
Some Volunteers argued that they were not learning the right dialect for their site; others
admitted that it was simply difficult for them to learn a foreign language. Taking into
consideration these concerns raised by Volunteers, we found the post’s approach to language
training to be reasonable: all trainees received instruction in the national language, Tagalog, for
most of PST. Some local dialect training was available later in PST after Volunteers had been
matched to specific sites. Post made tutors available to Volunteers who wanted to improve their
local language skills. Given the balanced approach at the post to local language training, and the
generally positive results and viewpoints of Volunteers, we determined the post had provided
Volunteers with sufficient opportunity and resources for their local language acquisition.

Technical training received the lowest average rating from the Volunteers we interviewed,
nevertheless most Volunteers in the CRM and CYF projects rated their technical training as
above average in effectiveness (4.0 out of 5 for CRM and CYF). Education Volunteers who were
already experienced in their fields tended to rate their technical training less favorably, pointing
out that it seemed geared for the generalist Volunteer with limited professional experience. We
found the training program to be generally sound other than the adequacy of the disaster
preparedness training during PST, which is addressed in the Volunteer Support section of this
report.




6
  In calculating the percentage of favorable ratings for this table, we used a five-point scale, with five being most
favorable and one being least favorable. A rating of three was considered neither favorable nor unfavorable. The
percent of Volunteers who rated training favorably includes those who rated training as either a four or a five.

Final Program Evaluation Report: Peace Corps/Philippines                                                                19
MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and management practices are adequate for effective post operations. To address
this question, we assess a number of factors, including staffing; staff development; office work
environment; collecting and reporting performance data; and the post’s strategic planning and
budgeting.

We found the post’s resources and management practices were adequate for effective post
operations. The USDH leadership team was well respected and had created a positive work
environment. Management had coached out and replaced under-performing staff. Planning and
budgeting processes had resulted in sufficient financial and staff resources to support operations.
In reviewing strategic planning and budgeting, the post’s staffing structure and staff
development, the office’s working environment and morale among staff, the post’s process for
collecting and reporting performance data, and the post’s relationship with headquarters, we
found no significant areas of concern that would necessitate action by the post.

Strategic Planning and Budgeting. After a period in 2013 and early 2014 during which some
key staff positions were vacant, the post put in place the financial and human resources required
for effective post operations. At the time of the evaluation, plans were in place for additional
programmatic staff support. The CD and others expressed confidence that the post was operating
with the human and financial resources it needed. We had no concerns about the planning and
budgeting documentation we reviewed.

Staffing Structure and Staff Development. The post was in the process of hiring additional
programmatic staff to provide more support for Volunteers in each project (education, CRM and
CYF). The post was also hoping to get regional approval for a full-time monitoring, reporting,
and evaluation staff member to improve how Volunteers measure and report their
accomplishments and how staff manage and use performance data from Volunteers. The USDH
management team was supportive and encouraging of staff professional development and
training opportunities.

Office Working Environment and Morale. The management team and staff had created a very
positive office environment. Staff expressed great appreciation for the management style of the
USDH team and the USDH management team expressed high satisfaction with the quality of
staff working for the post.

       It’s good; it’s a small family, the camaraderie is good. You can be frank, get into a more negative issue and
       not be turned away or turned off.

       I’m enjoying the challenges. [The CD and DPT] are easy to work with; they treat you with respect. My
       colleagues get along and support each other.

       This is the best team I’ve been on since being a Peace Corps employee…The leadership can share hats and
       do different roles when necessary. No hesitations of sharing responsibilities and we communicate very well
       together.




Final Program Evaluation Report: Peace Corps/Philippines                                                          20
The current management team and staff in the Philippines created a participatory and
empowering environment for staff. Staff appreciated the leadership of the CD who was seen as
transparent in his decision making. The fact that the CD had committed to staying for a full five
years was also appreciated by staff. Staff morale and motivation was high.

Processes for Collecting and Reporting Performance Data. The post was using performance
data from Volunteers to inform its strategic planning and budgeting submissions, and to generate
annual reports for stakeholders in the Philippines. We did not have any concerns about the post’s
process for collecting or reporting performance data.

Relationship with Headquarters. We found positive levels of mutual understanding, respect,
communication, and support existed between post and headquarters. Representatives we spoke to
at headquarters expressed high regard for the jobs being done by staff and management in the
Philippines, and staff we interviewed at the post also reported that their interactions with
headquarters personnel had been positive.




Final Program Evaluation Report: Peace Corps/Philippines                                        21
                          LIST OF RECOMMENDATIONS
WE RECOMMEND :

1. That the country director reinforce the importance of the whereabouts policy with
   Volunteers, including under what circumstances Volunteers need to seek approval from their
   supervisor to leave their site.

2. That the safety and security manager ensure that all completed housing checks are revi ewed
   and that each mandatory safety and security criterion, including sliding dead bolts, are in
   place at all Volunteer residences.

3. That the safety and security manager provide training and instructions to Volunteers on
   properly completing their site locator forms and ensure that each site locator form contains a
   sufficiently detailed map and written directions to the Volunteer’s residence.

4. That the country director ensure that post has a process for testing and verifying information
   on site locator forms.

5. That the safety and security manager train Volunteers wardens closer to the end of PST,
   before they are expected to fulfill any warden duties.

6. That the safety and security manager ensure that Volunteers have information on who their
   wardens are and that wardens have accurate and up-to-date lists of the Volunteers they are
   responsible for contacting in an emergency.

7. That the country director ensure that staff and Volunteers/trainees receive sufficient
   emergency preparation training that is specific to the natural disasters and other emergencies
   in the Philippines.

8. That the safety and security manager establish and use standards for the selection of
   consolidation points.

9. That the safety and security manager and training manager ensure through training and
   communication that all Volunteers understand why they must go to their consolidation point
   when instructed in an emergency.

10. That the safety and security manager establish and implement a system for the collection and
    maintenance of site history files that includes written reports of security assessments of
    Volunteer sites.

11. That the Peace Corps safety and security officer conduct a full Peace Corps Manual section
    270 review of the Peace Corps/Philippines according to the agency’s guidance, “Manual
    section 270 and Other Policy Review 2014.”




Final Program Evaluation Report: Peace Corps/Philippines                                        22
12. That the associate director of safety and security assess options for positioning the Peace
    Corps safety and security officer for the Philippines in a location that allows for more
    effective support.




Final Program Evaluation Report: Peace Corps/Philippines                                          23
       APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In February 1989, the Peace Corps OIG was established under the Inspector General Act of 1978
and is an independent entity within the Peace Corps. The purpose of the Office of Inspector
General (OIG) is to prevent and detect fraud, waste, abuse, and mismanagement and to promote
economy, effectiveness, and efficiency in government. The Inspector General is under the
general supervision of the Peace Corps Director and reports both to the Director and Congress.

The Evaluation Unit within OIG provides senior management with independent evaluations of
all management and operations of the Peace Corps, including overseas posts and domestic
offices. OIG evaluators identify best practices and recommend program improvements to comply
with Peace Corps policies.

The Evaluation Unit announced its intent to conduct an evaluation of the post on January 28,
2014. For post evaluations, we use the following researchable questions to guide our work:

      To what extent has post developed and implemented programs to increase host country
       communities’ capacity?
      Does training prepare Volunteers for Peace Corps service?
      Has the post provided adequate support and oversight to Volunteers?
      Are post resources and management practices adequate for effective post operations?

The evaluation team conducted the preliminary research portion of the evaluation January 28 to
March 14, 2014. This research included review of agency documents provided by headquarters
and post staff, and interviews with management staff representing Europe, Mediterranean and
Asia Operations; Overseas Programming and Training Support; the Office of Global Health and
HIV; the Office of Medical Services and Counseling and Outreach Unit; Peace Corps Response;
the Office of Safety and Security; the Office of Volunteer Recruitment and Selection; the Office
of Victim Advocacy; and the Office of Intergovernmental Affairs and Global Partnerships.

In-country fieldwork occurred from March 17 to April 4, 2014, and included interviews with
post senior staff in charge of programming, training, and support; the U.S. Ambassador to the
Philippines; the deputy chief of mission at the U.S. Embassy; the embassy regional security
officer and assistant regional security officer; the chief of mission for the U.S. Agency for
International Development (USAID) in the Philippines; an education specialist and a health
specialist at USAID; the director of the Millennium Challenge Corporation in the Philippines;
and twelve host country government ministry officials. In addition, we interviewed a stratified
judgmental sample of 30 Volunteers (23 percent of Volunteers serving at the time of our visit)
based on their length of service, site location, project focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.


Final Program Evaluation Report: Peace Corps/Philippines                                          24
                     APPENDIX B: INTERVIEWS CONDUCTED
As part of this post evaluation, we interviewed 30 Volunteers; 18 staff in-country; and 38
representatives from Peace Corps headquarters in Washington D.C., the U.S. Embassy in the
Philippines, and key ministry officials. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = neutral, 5 = very effective). The analysis of these ratings
provided a quantitative supplement to Volunteers’ comments, which were also analyzed. For the
purposes of the data analysis, Volunteer ratings of “4” and above are considered favorable. In
addition, 28 out of 30 Volunteer interviews occurred at the Volunteers’ homes, and we inspected
28 of these homes using post-defined site selection criteria. The period of review for a post
evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in the Philippines; the Volunteer sample was selected to reflect these demographics.

                                  Table 2: Volunteer Demographic Data
                                                                           Percentage of
                                    Project
                                                                            Volunteers
              Education                                                        33%
              Children, Youth and Family Services                              37%
              Environment                                                      26%
              Peace Corps Response Volunteers                                   4%
                                                                           Percentage of
                                   Gender
                                                                            Volunteers
              Female                                                           69%
              Male                                                             31%
                                                                           Percentage of
                                      Age
                                                                            Volunteers
              25 or younger                                                      47%
              26-29                                                              26%
              30-49                                                              12%
              50 and over                                                        15%
             Source: Volunteer Information Database Application for PC/Philippines (2/4/2014)


At the time of our field visit, the post had 36 staff. Three positions were vacant.7 The post also
employed temporary staff to assist with PST, though given the time of our visit, these positions
were not staffed. We interviewed 18 staff members and a Peace Corps Volunteer leader.8

7
  Vacant positions during our fieldwork included: the CRM project manager, a program assistant and a specialist for
the “Padayon” project.
8
  A Peace Corps Volunteer Leader is typically a Volunteer who has extended service for a 3 rd year in order to
perform special duties, e.g. offering guidance to other Volunteers and handling administrative tasks to support
Volunteer projects.

Final Program Evaluation Report: Peace Corps/Philippines                                                        25
              Table 3: Interviews Conducted with PC/Philippines Staff Members
                              Position                        Status    Interviewed
      Country Director                                                    USDH                   X
      Director of Programming and Training                                USDH                   X
      Director of Management and Operations                               USDH                   X
      Children Youth and Family Sector Manager                            PSC*                   X
      Education Sector Manager                                            PSC                    X
      Coastal Resources Management Technical Assistant                    PSC                    X
      Training Manager                                                    PSC                    X
      Regional Managers (3)                                               PSC                    X
      Safety and Security Coordinator                                     PSC                    X
      Safety and Security Assistant                                       PSC                    X
      PCMO (2)                                                            PSC                    X
      Medical Technologist                                                PSC
      Peace Corps Response Coordinator                                    PSC                    X
      Resource Coordinator                                                PSC
      Program Assistant/Monitoring and Evaluation Champion                PSC                    X
      Peace Corps Volunteer Leader                                        Volunteer              X
      Program Assistant                                                   PSC
      Executive Assistant                                                 PSC
      Language Coordinator                                                PSC                    X
      Training Assistant                                                  PSC
      Program Management Specialist                                       PSC                    X
      Volunteer Support Assistant                                         PSC
      General Services Officer                                            PSC
      General Services Assistant                                          PSC
      IT Specialist                                                       PSC
      Administrative Assistants and Clerks (4)                            PSC
      Cashier                                                             FSN*
      Drivers (3)                                                         PSC
      Custodian                                                           PSC
     Data as of March 2014. *PSC is personal services contractor; FSN is foreign service national.

Thirty-eight additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

            Table 4: Interviews Conducted with PC/Headquarters Staff, Embassy
                             Officials and Key Ministry Officials
                                 Position                                    Organization
         Regional Director                                           PC headquarters/Europe,
                                                                     Mediterranean and Asia
                                                                     Operations
         Country Desk Officer                                        PC headquarters/Europe,
                                                                     Mediterranean and Asia
                                                                     Operations
         Regional Security Advisor                                   PC headquarters/Europe,


Final Program Evaluation Report: Peace Corps/Philippines                                             26
                                                           Mediterranean and Asia
                                                           Operations
         Chief of Programming and Training                 PC headquarters/Europe,
                                                           Mediterranean and Asia
                                                           Operations
         Chief of Operations                               PC headquarters/Europe,
                                                           Mediterranean and Asia
                                                           Operations
         Director                                          PC headquarters/ Overseas
                                                           Programming and Training
                                                           Support
         Monitoring and Evaluation Specialist              PC headquarters/Europe,
                                                           Mediterranean and Asia
                                                           Operations
         Director                                          PC headquarters/Office of
                                                           Global Health and HIV
         Director                                          PC headquarters/Office of
                                                           Health Services
         Psychologist                                      PC headquarters/Office of
                                                           Health Services
         Chief of Operations                               PC headquarters/Peace Corps
                                                           Response
         Recruitment and Placement Specialist              PC headquarters/Peace Corps
                                                           Response
         Director                                          PC headquarters/Peace Corps
                                                           Response
         Peace Corps Safety and Security Officer           PC headquarters
                                                           PC headquarters/Overseas
         Technical Training Specialist and
                                                           Programming and Training
         RPCV/Philippines
                                                           Support
                                                           PC headquarters/Volunteer
         Regional Recruiter and RPCV/Philippines
                                                           Recruitment and Selection
         Director                                          PC headquarters/Office of
                                                           Victim Advocacy
         Program Specialist                                PC headquarters/
                                                           Intergovernmental Affairs and
                                                           Global Partnerships
         U.S. Ambassador                                   U.S. Embassy/Philippines
         Deputy Chief of Mission                           U.S. Embassy/Philippines
         Regional Security Officer                         U.S. Embassy/Philippines
         Assistant Regional Security Officer               U.S. Embassy/Philippines
         Chief of Mission                                  USAID/Philippines
         Education Specialist                              USAID/Philippines
         Health Specialist                                 USAID/Philippines
         Executive Director                                Philippine National Volunteer
                                                           Service Coordinating Agency
         Director                                          Millennium Challenge
                                                           Corporation
         Program Coordinator                               Philippine National Volunteer

Final Program Evaluation Report: Peace Corps/Philippines                                   27
                                                           Service Coordinating Agency
         Program Specialist                                Philippine National Volunteer
                                                           Service Coordinating Agency
         Monitoring and Evaluation Specialist              Philippine National Volunteer
                                                           Service Coordinating Agency
         Program Coordinator                               Department of Social Welfare
                                                           and Development
         Representatives (3)                               Department of Education,
                                                           Bureau of Alternative
                                                           Learning Systems
         Representatives (4)                               Local Government Unit,
                                                           Miag-ao, Philippines
        Data as of April, 2014.




Final Program Evaluation Report: Peace Corps/Philippines                                   28
                      APPENDIX C: LIST OF ACRONYMS

 CD                       Country Director
 CIRS                     Consolidated Incident Reporting System
 COU                      Counseling and Outreach Unit
 CRM                      Coastal Resource Management
 CYF                      Children, Youth, and Family Services
 DMO                      Director of Management and Operations
 DPT                      Director of Programming and Training
 DSWD                     Department of Social Welfare and Development
 EAP                      Emergency Action Plan
 EMA                      Europe, Mediterranean, and Asia Operations
 GPS                      Global Positioning System
 IGAP                     Intergovernmental Affairs and Global Partnerships
 LGU                      Local Government Unit
 MCC                      Millennium Challenge Corporation
 MOU                      Memorandum of Understanding
 MS                       Manual Section
 OGHH                     Office of Global Health and HIV
 OIG                      Office of Inspector General
 OMS                      Office of Medical Services
 OPATS                    Overseas Programming and Training Support
 OVA                      Office of Victim Advocacy
 PC                       Peace Corps
 PCMO                     Peace Corps Medical Officer
 PCR                      Peace Corps Response
 PCSSO                    Peace Corps Safety and Security Officer
 PCV                      Peace Corps Volunteer
 PNVSCA                   Philippine National Volunteer Service Coordinating Agency
 PSC                      Personal Services Contractor
 PST                      Pre-Service Training
 SLF                      Site Locator Form
 SPA                      Small Project Assistance
 SSM                      Safety and Security Manager
 TU                       Training Unit
 USDH                     United States Direct Hire
 VAC                      Volunteer Advisory Committee
 VIDA                     Volunteer Information Database Application
 VRS                      Volunteer Recruitment and Selection




Final Program Evaluation Report: Peace Corps/Philippines                              29
   APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY
                        REPORT




Final Program Evaluation Report: Peace Corps/Philippines   30
                        APPENDIX E: OIG COMMENTS
Management concurred with 11 of 12 recommendations. All recommendations remain open.
OIG will review and consider closing recommendations 1 to 11 when it receives the
documentation reflected in the agency’s response that demonstrates actions the agency has taken
to address the recommendation. We wish to note that in closing recommendations we are not
certifying that the agency has taken these actions or that we have reviewed their effect.
Certifying compliance and verifying effectiveness are management’s responsibilities. However,
when we feel it is warranted, we may conduct a follow-up review to confirm that action has been
taken and to evaluate the impact. In order for OIG to consider closing recommendation 12,
additional documentation is required.

12: That the associate director of safety and security assess options for positioning the
Peace Corps safety and security officer for the Philippines in a location that allows for
more effective support.

       Do Not Concur
       The Office of Safety and Security regularly evaluates coverage and workload of PCSSOs
       and bases decisions on factors such as logistics ease of communications, workload of the
       PCSSO and similarity of issues across the PCSSOs coverage region. Currently there is no
       possible positioning that will enable all posts worldwide to have PCSSOs in the same
       time zone or able to be available 24/7. While the issues identified in the Philippines
       report highlight some possible communication inconveniences, this is a situation that
       exists for many posts, and is often dependent on the travel status of the PCSSO and cell
       phone coverage area where they are located. In the previous Audit of Safety and Security
       (FY 2010) the OIG recommended, “That the associate director for safety and security
       work with the associate director of global operations to analyze whether the posting of
       each Peace Corps safety and security officer enhances safety and security and is the most
       efficient, effective and cost effective placement. If needed, relocate Peace Corps safety
       and security officers accordingly.” (number 17). At the time the Office of Safety and
       Security concurred with this recommendation and did an evaluation of the placement of
       PCSSOs. The Office of Safety and Security continually evaluates the coverage needs and
       as needed makes adjustments to the placement of PCSSOs. In the past three years we
       have changed the coverage areas in Central and South America, Central Asia, East Asia
       and the Pacific based on new country entries or post closures, and PCSSO rotations. This
       is an ongoing process as new posts are identified, workloads change and PCSSO
       positions shift and we do not do this on a post-by-post basis. The Office of Safety and
       Security, however, does not concur with the OIG recommendation that this be done for
       individual posts.

       Status and Timeline for Completion: Completed

       OIG Analysis: The Office of Safety and Security, to support its non-concurrence, argues
       that it has changed PCSSO coverage areas in recent years based on a range of factors, but




Final Program Evaluation Report: Peace Corps/Philippines                                      40
       not “on a post-by-post basis,” and as a result it does not agree with OIG’s
       recommendation to assess PCSSO coverage options for the Philippines.

       In order for us to consider closing recommendation 12 we ask the Office of Safety and
       Security to provide documentation that shows why the agency shifted coverage of
       Philippines from the PCSSO based in Thailand to the PCSSO based in Fiji, and how it
       determined that the current PCSSO coverage of post is sufficient to meet post’s needs.




Final Program Evaluation Report: Peace Corps/Philippines                                        41
    APPENDIX F: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT

P ROGRAM                       This program evaluation was conducted by Assistant
EVALUATION                     Inspector General for Evaluations Jim O’Keefe and Senior
                               Evaluator Jerry Black.
COMPLETION




                               Jim O’Keefe
                               Assistant Inspector General for Evaluations

OIG CONTACT                    Following issuance of the final report, a stakeholder
                               satisfaction survey will be distributed to agency
                               stakeholders. If you wish to comment on the quality or
                               usefulness of this report to help us improve our products,
                               please contact Assistant Inspector General for Evaluations
                               Jim O’Keefe at jokeefe@peacecorps.gov or 202.692.2904.




Final Program Evaluation Report: Peace Corps/Philippines                                    42
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                 OIG@peacecorps.gov
          Online Reporting Tool: PeaceCorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
